Concern over the government’s travel card program arose at a May 1, 2001, Congressional
hearing before the House Government Reform Committee on Government Efficiency, Financial
Management and Intergovernmental Relations. The General Services Administration (GSA)
testified that as of March 2001, federal employees were delinquent in paying more than $25
million on their travel card accounts. In addition, the President’s Council on Integrity and
Efficiency’s Inspections and Evaluations Roundtable proposed a government-wide evaluation of
travel card use.

The Travel and Transportation Reform Act of 1998 (Public Law 105-264) requires government
employees to use the Government Travel charge card (travel card) on official business.
Government employees must use their travel card to pay for official expenses, such as hotel
rooms and airline tickets. In 1998, GSA awarded contracts to four banks to provide travel card
services. The GSA contracts set up a point system that allows departments to receive rebates
from the banks based on travel card use. Each department chooses one of the four banks to
provide the services. DOL chose Citibank.

The Department of Labor Manual Series (DLMS) contains Department-wide policies and
procedures. DLMS – 7, Part 15 covers the Department’s Travel Management Programs. DOL’s
policy is to issue a travel card to any employee who expects to travel more than twice a year.
The travel cards are individually billed accounts. Employees receive bills from Citibank at their
home and use the money they receive from their travel vouchers to make payments. Citibank
holds employees personally responsible for any unpaid bills. Payment is due within 25 calendar
days of the billing date; however, Citibank does not charge interest or impose late fees. If a bill
is not paid within 45 days, it is considered past due. At 61 days, Citibank will suspend an
employee’s card and at 126 calendar days Citibank will cancel it. Federal regulations allow
Citibank to write-off unpaid amounts at 181 days past due.

The DOL-wide Travel Card Coordinator is located in the Office of Chief Financial Officer. The
DOL Coordinator works with Citibank to develop the GSA contract and provides training to
A/OPCs. To help manage the day-to-day operation of the program, the Department has set up a
system of A/OPCs. The A/OPCs are responsible for setting up employee travel card accounts
and monitoring account activity and delinquencies. The majority of the A/OPCs are OASAM
employees, who perform the A/OPC responsibilities in addition to their regular duties. OASAM
handles the administrative aspects of the travel card program for most DOL agencies, except for
the OIG and the Mine Safety and Health Administration. Both of these agencies have appointed
one of their employees as A/OPC to handle their entire agency. OIG relies on one A/OPC to
manage the travel card program for the entire OIG staff including regional employees.

To determine whether OIG has adequate internal controls, we examined Citibank transaction and
delinquency data from April 1, 2000 to March 31, 2001. In addition we interviewed the regional
Management Services Specialists (MSSs) and the OIG Agency/Organization Program
Coordinator. We also reviewed pertinent federal laws and regulations as well as OIG, DOL and
Citibank guidelines and training materials. We conducted this evaluation in accordance with the
Quality Standards for Inspections published by the President’s Council on Integrity and
Efficiency.
                          FINDINGS AND RECOMMENDATIONS

FINDING A - The OIG Does Not Have Adequate Written Guidance For
            Administering The Travel Card Program

The OIG does not have adequate written procedures on how to review travel card transactions to
determine possible misuse. Further, it does not have adequate procedures on how to handle
possible misuse and delinquency once it is identified. This lack of written guidance results in an
inadequate level of review and follow-up.

As part of DOL’s task order with Citibank, Citibank provides a series of hard-copy reports each
month. Examples include the Account Activity Report, which lists all activity for the travel card
program and the Delinquency Report, which lists all delinquent account balances. In addition,
Citibank provides A/OPCs with access to CitiDirect, Citibank’s electronic reporting system.
CitiDirect allows A/OPCs to access electronic reports and create ad hoc reports. An A/OPC may
also use Citidirect to modify accounts, and to request and cancel cards.

Based on Citbank’s data, the OIG had a total of 13,263 transactions from April 2000 to March
2001, which Citibank divided into transaction types. The majority of the transactions were
purchases. Purchase transactions totaled $1,422,695 during this time period. After separating
the transactions by type, we then categorized the 8,697 “Purchase” transactions. The majority of
the purchase transactions involved hotels and airline tickets (64%).

Identifying and Handling Possible Misuse

DOL-wide guidance concerning review of travel card use is the DLMS 7, which states that the
A/OPC shall review the contractor’s reports to identify employees who have billed personal
items to the card. The OIG needs to develop more specific procedural guidelines. These
guidelines need to include notifying employees of possible misuse or delinquency. Currently,
the A/OPC relies on e-mail. However the A/OPC does not follow-up with the employee or keep
a record of the e-mail.

The OIG should consider involving the Management Services Specialists (MSSs), its
administrative officers in the regions, when the issues involve a regional employee. The A/OPC
is located at the National Office and therefore does not have access to the travel vouchers of
regional employees. There may be times when the A/OPC is concerned that charges may not
have been incurred while the employee was on official travel. MSSs have access to regional
employees’ travel vouchers and would be able to verify whether the employee was on official
travel. The MSS could also serve as a liaison between the A/OPC and the employee. For
example, if the A/OPC e-mails an employee about possible misuse or delinquency and the
employee does not respond or continues to misuse the card, as a next step the A/OPC would
inform the MSS. The MSS would be in a better position to address the employee directly or
inform the manager.




                                                2
Handling Delinquency

A/OPCs do not have the same problems identifying delinquencies. Citibank provides monthly
delinquency reports that list the amount of the delinquency and how the long the payment has
been past due. However, as with misuse, the OIG needs to develop clear instructions on how the
A/OPC should handle delinquency.

Under GSA’s Master Contract with Citibank, an account is past due if it is not paid within 45
days of the closing date. At 61 days, Citibank suspends the account and the employee is unable
to use the card until the principal amount is paid. Citibank will cancel the card if an employee is
126 days past due or has a card suspended twice in twelve months.

After 180 days, federal regulations allow Citibank to write-off unpaid amounts as credit losses.
To encourage federal agencies to address employee travel card delinquency, on October 24,
2001, GSA amended the Citibank contract to allow Citibank to deduct the total amount of credit
losses from the net charge volume. DOL’s SmartPay Refunds are based on DOL’s net charge
volume; thus, an employee failing to pay their travel card bill costs DOL rebate money.
Cumulative write-offs from the inception of the Citibank contract (1998) until the end of March
totaled $362,048.1

Currently, the OIG does not have a system for handling delinquencies. They have not set a past
due threshold after which a delinquent employee should be contacted, nor are there clear
procedures on how delinquent employees are to be handled. As with possible misuse, the OIG
needs written procedures and should consider involving the MSSs when dealing with regional
employees.

Conclusion

In our report to OCFO and OASAM, we recommended that they develop a checklist for A/OPCs
to follow, procedures for notifying employees or agencies of possible misuse and/or delinquency,
provisions for following up with employees and agencies, procedures for canceling cards for
repeated misuse, and instructions for record keeping. The OIG could use the products as a model
for their written procedures.

      We recommend that the OIG:

      1. Develop written procedures for reviewing travel card transactions and handling
         possible misuse and delinquency, in coordination with OCFO and OASAM.

OIG, Office of Resource Management and Administration’s Response

      “Concur. Although DMLS 7, Chapter 1 provides all DOL agencies with travel card
      policy and guidelines, an OIG-specific IGD or MN will be developed to clarify and
      enhance OIG-specific guidance for reviewing travel card transactions and handling
      possible misuse and delinquency of travel card payment by OIG employees.”
1
    The total does not include any money Citibank collected after the 180 days.


                                                           3
OIG’s Conclusion

We concur with the proposed corrective action and consider this recommendation
resolved. This recommendation will be closed pending receipt of a copy of the OIG-
specific policies and guidelines. Please provide the requested documentation by July 31,
2002.

FINDING B – OIG Employees Are Not Receiving Adequate Information About the Travel
            Card Program

The OIG needs to ensure that employees receive adequate information about the use of the travel
card. Current practice includes Citibank sending an employee a cardholder agreement with the
government travel card. In addition, the Department bi-annually distributes a memo (Spotlight)
explaining proper employee conduct and responsibilities with regard to travel card use and
payment. However, it is not clear whether OIG employees are receiving this information and/or
understanding their responsibilities.

According to interviews with the MSSs and the A/OPC, the amount of additional information an
employee receives depends on the region. Some regions provide written and verbal guidance to
new employees during orientation. Others rely on Citibank’s travel card agreement and
Department memos to educate employees.

While it seems unlikely that delinquency or all cases of misuse can be attributed to ignorance,
better training could ensure that lack of knowledge is not an issue. For example, according to
OCFO, it is not appropriate for an employee to use his travel card if the employee loses his
luggage while traveling. However, an A/OPC that we talked to believed that replacing items lost
in your luggage was an allowable use. We recommended that the Department that they develop
materials such as a simple “Do’s and Don’ts” list or “Frequently Asked Questions” (FAQs) to
give to all employees. The OIG should use these materials and any others they may choose to
develop to new employees requesting cards. The A/OPC could distribute them to national office
employees and the MSSs could handle the regions. Employees also need to know that their
transactions are being reviewed and what actions will be taken if they misuse their cards or are
delinquent.

This information should not only be given to new employees, but existing cardholders as well.
The OIG should cover travel card use in current orientation or ethics classes. Employees should
understand that OIG takes misuse and delinquency seriously and that there are consequences for
inappropriate actions.




                                               4
We recommend that OIG:

   2. In coordination with OCFO and OASAM, provide more information to employees about
      the travel card program by doing such things as:

       •   Distributing materials such as a simple list of practical “Do’s and Don’ts” or FAQs to
           employees;
       •   Covering travel card issues with employees during current orientation or ethics
           classes;
       •   Informing employees that their transactions are being reviewed; and
       •   Advising employees that disciplinary action will be taken regarding misuse and
           delinquency.

OIG, Office of Resource Management and Administration’s Response

   “Partially concur. OIG employees receive clear, detailed information with the
   issuance of the actual travel card in the Citibank contract. Also, periodic DOL
   Spotlights are issued for highlighting any changes made departmentally in travel
   policy and travel card usage. OIG issues periodic Travel Bulletins via e-mail to OIG
   employees and provides travel information and references Travel Bulletin sites on the
   OIG Intranet.”

   “OIG will provide more information to employees through an enhanced and updated
   web page. This will be accomplished as part of the upcoming Intranet enhancement
   project. Additionally, Travel Bulletins will be issued more frequently to all OIG
   travelers and proper travel card usage will be stressed during employee orientation
   and ethics sessions.”

OIG’s Conclusion

We concur with the proposed corrective actions and consider this recommendation
resolved. We will close this recommendation pending notification that travel card
information has been incorporated in orientation and ethics classes, and that OIG web
page enhancements are completed. Please provide the requested documentation by July
31, 2002.

FINDING C - The OIG Needs To Provide Guidance On How To Apply
            DOL Disciplinary Policies To Travel Card Misuse And Delinquency

The OIG needs to work with the Department to develop guidelines for managers on how to apply
the Standards of Ethical Conduct for Employees of the Executive Branch to travel card misuse
and delinquency. In addition to costing DOL money, misuse and delinquency can be indications
of larger employee problems and should not remain unaddressed. While A/OPCs can cancel




                                                5
cards, this alone is not a deterrent to misuse and delinquency. Once an A/OPC has identified a
problem that needs to be referred to the employee’s supervisor, management is responsible for
taking corrective action.

The Standards of Ethical Conduct for Employees of the Executive Branch 5 CFR 2625.704 (a)
states, “Standard. An employee has a duty to protect and conserve Government property and
shall not use such property, or allow its use, for other than authorized purposes.” We
recommended to the Department that they work with program agencies to develop disciplinary
guidance concerning travel card misuse and delinquency. The OIG should work with the
Department to develop the guidance and then educate OIG supervisors and managers about what
options are available when an employee makes unauthorized use of his travel card.

      We recommend that the OIG:

      3. Work with the Department to develop guidance for supervisors on what
         disciplinary options are available if an employee makes unauthorized use of his
         travel card and/or is delinquent.

OIG, Office of Resource Management and Administration’s Response

      “Concur. Existing IGDs will be reviewed to ensure that travel card misuse and
      delinquency are clearly and appropriately covered.”

OIG’s Conclusion

We agree with the proposed corrective action and consider this recommendation
resolved. This recommendation will be closed pending receipt of a copy of the IGDs that
cover travel card misuse and delinquency. Please provide the requested documentation
by July 31, 2002.
                                       __________

A copy of the Office of Resource Management and Administration’s complete response is
attached. We appreciate the time and cooperation we received from your staff during this
review. Please do not hesitate to address any questions regarding this report to Gregory
Simmons, Director, Division of Program Evaluations, at 202-693-5215.

Attachment

cc:      Colleen Callahan




                                                 6
